.
    researcher) ofhet(-
                                             -
                                           CLOSEOUT FOR M98110033

             This matter arose as a result of a telephone call from Dr. (

    affiliated with t h e ~ ~ s u ~ ~ o r t e d            --
                                                                              t


    and is also the principal investigator (PI) for an NSF grant to the ~niversity.~
                                                                                     h      e first
                                                     university) to OIG. The first researcher is
                                                                                        (the center)
                                                                                      The first
    researcher expressed concern that an unnamed student had failed to supply the fust researcher
    with data that the student had collected as part of an NSF-supported project under the first
    researcher's direction. The fust researcher indicated that his concern over the matter was
    heightened by the fact that the student was now working with Dr.hte-(
    second researcher), a former collaborator of the first researcher at the university and the
    center. The first researcher noted that his relations with the second researcher were poor, and
    he alleged that the center had severed the second researcher's affiliation with it because the
    second researcher had failed to share data in accordance with NSF policy.

            OIG informed the first researcher that his university, as the institution responsible for
    the awakd under which his data were collected, was responsible for keeping "records pertinent
    to a grant,"3 including data records. OIG advised him that he should seek help from
    responsible administrators at his university in securing access to those records. OIG noted'that
    he might also seek to enlist the program manager's assistance in helping him resolve the
    sit~ation.~

           The Drogram manager who recommended the first researcher's award (and who also
    manages NSF'S-award to the center), was ~ rf .              . -eht
    The program manager had previously been the subject of an anonymous, largely unspecific,
    complaint to OIG that had included an allegation of bias in favor of the second researcher.
    OIG's inquiry into the specific components of that complaint (OIG Case # M97080024) had
    concluded that the complaint lacked substance and did not raise credible and substantive
    program management issues. However, OIG noted that certain comments the first researcher




      The program manager later informed OIG that the first researcher had consulted her about this matter and that
    they had discussed how best to resolve it.


                                                 page 1 of 3                                    M98-33
                                  '\,   CLOSEOUT FOR M98110033

 made in his telephone call to OIG, although they did not constitute an allegation that the
 program manager had acted improperly, again raised the possibility that she might be biased in
 favor of the second researcher. OIG further noted that NSF had made a recent award to the
 second researcher.' OIG decided, in light of these repeated intimations of bias, to examine the
 award jackets for the center and the recent award to the second researcher to assess whether
 they showed evidence that the program officer had acted inappropriately.

          NSF program records for the center indicated that the second researcher's relationship
  to the center ended for several reasons, including scientific and personal conflicts and differing
  priorities for use of center funds. According to a memorandum written by the center PI, the
  second researcher believed that his available grant funds would not permit him to comply with
. specific requirements of the center's data access policy. These requirements were not a part of
  NSF's openness policy, and the memorandum gave no indication that the second researcher's
  actions violated that policy. Likewise, the memorandum did not suggest that the second
  researcher had acted in ways that would raise questions about continued NSF support for the
  second researcher's project. The award records contained no evidence of unreasonable bias by
  the program officer and ample information that tended to support her recommendations
  regarding the second researcher.

       OIG's review of the award records led us to raise two other issues with the program
 manager.

        First, OIG noted that the proposal that led to the second researcher's award mentioned
his association with the center and that two of the merit reviews commented on the relationship
between the researcher's work and that of the center. OIG further noted that, in the time
between the submission of the merit reviews and the program manager's recommendation that
NSF fund the proposal, the program manager had learned that the second researcher was no
longer associated with the center. Although the program manager provided a cogent oral
analysis of the relevance of this changed circumstance to her recommendation that NSF fund
the second researcher's proposal, we noted that her analysis of this issue was not documented
in NSF's program file. After our conversation, tde program manager decided to place a
written account of her analysis in the file.

       Second, OIG noted that the program manager, in making her funding recommendation
concerning the second researcher's proposal, had used a proposal review from a scientist who,
according to the program file, was at the second researcher's university. This reviewer
appeared to have a biasing affiliation, as an employee of the university, that would disqualify
him as a reviewer. The file contained no information to indicate that the reviewer in fact did
not have this disqualifying affiliation. The program manager affmed that she was aware of


                                                                                     (the federal agency). NSF
                                                                                        with the same title. After
the second researcher left the university and took a position with the federal agency, NSF cancelled the earlier
award.


                                             page 2 of 3                                     M98-33
                           --
                                '   CLOSEOUT FOR M98110033

NSF's rules regarding reviewer conflicts of interests and how they applied to situations such as
this. She told us that it was her recollection that the reviewer changed institutional affiliations
at approximately the time he submitted his review, and she offered to make further inquiries to
determine whether there had actually been a conflict of interests. OIG noted that, without this
review, the file contained sufficient information to justify a recommendation to fund the
proposal. OIG suggested that, since further inquiry into this matter would have no prospective
substantive effect, it would be sufficient to note the possible conflict of interests in the file and
record her judgment that excluding the review from consideration would have had no effect on
her funding recommendation. The program manager elected to write a note to this effect and
supplied a copy to her division director.

        OIG concluded that it had no reason to believe that these two issues suggested the need
for further corrective action of any kind.. By adding documentation to the file as described
above and calling the relevant information to her division director's attention, the program
manager has enabled the division director to make his own independent assessment on this
point.

       This inquiry is closed and no further action will be taken on this case.

cc: Acting IG, Senior Advisor to the IG, Legal, Investigations




                                       page 3 of 3
